                                Audit of NRC’s Controls Over the Process for Eliminating Management Directives


BACKGROUND

In 2005, agency officials recognized that NRC’s Management Directives System2
needed improvements and formed a Management Directives Working Group. The
Working Group was tasked to (1) review the agency’s current process for developing
and revising management directives and (2) draft recommendations for enhancing the
efficiency, effectiveness, and timeliness of the Management Directives System. One of
the Working Group’s recommendations was that directives be reviewed and re-issued
every 5 years. As a result, the Office of Administration (ADM) sent a memorandum to
all agency offices requesting the status of management directives under their purview.
In particular, the Office of Nuclear Reactor Regulation (NRR) responded to ADM’s
request stating, among other things, that it wanted to eliminate Management Directive
8.13, Reactor Oversight Process.


PURPOSE

The objective of this audit was to determine if NRC has controls to ensure that the
appropriate authorities, responsibilities, policies, and procedures remain in place for
major functions of the agency when a management directive and handbook3 are
eliminated.


RESULTS

Although NRC has a process for eliminating management directives, additional controls
are needed. Currently, NRC’s process for eliminating management directives is not
obvious to agency staff because the guidance lacks specificity. Furthermore, NRC has
a system of guidance documents and the correlation of these different types of
guidance is not obvious because NRC does not have an official hierarchy of agency
guidance. The results of not having clear direction or understanding can manifest into
effectiveness and efficiency issues. Moreover, the agency may not retain necessary
controls, including authorities, responsibilities, policies, and procedures, when a
management directive is eliminated.

Internal Controls: Policies, Requirements, and Procedures

Policies and procedures are an integral part of an agency’s internal control process.
Internal controls provide reasonable assurance that the agency:

        •   Is in compliance with applicable laws and regulations.

        •   Has effective and efficient operations.



2
 NRC’s Management Directives System was established in 1990.
3
 For purposes of this report, OIG will refer to both the management directive and handbook simply as the
management directive.
                                                    2
                               Audit of NRC’s Controls Over the Process for Eliminating Management Directives


NRC’s intention is to effectively communicate its basic policies, requirements, and
procedures necessary for the agency to comply with Executive orders, pertinent laws,
regulations, and the circulars and directives of other Federal agencies. As such, NRC
prepares and issues management directives, as well as revisions to these documents,
to cover major agency functions and programmatic responsibilities that may be under
the purview of one or more organizational units within NRC at any particular time.

Eliminating a Management Directive

The guidance for eliminating management directives is available in Management
Directive 1.1, NRC Management Directives System. Essentially, the guidance instructs
NRC staff to submit to ADM an NRC Form 521, Request for Publication or Elimination
of an NRC Management Directive [see Appendix A for a copy of NRC Form 521], and a
copy of the directive and handbook to be eliminated. OIG and the Office of the General
Counsel (OGC) must review every proposal to eliminate a directive. Upon receipt of the
NRC Form 521, ADM officials will complete and submit NRC Form 522, Approval for
Issuance or Elimination of an NRC Management Directive [see Appendix B for a copy of
NRC Form 522], to the Chairman or the Executive Director for Operations, as
appropriate. When NRC Form 522 has been approved, ADM will notify the affected
NRC recipients and system custodians through the Management Directives System
monthly update that the directive has been eliminated. ADM will also remove the title of
the eliminated directive from the system and place “Reserved” beside its number for
future use.

Although the guidance provides the basic steps to be followed, it does not include
direction for determining why a management directive should be eliminated or what
might be used to replace the management directive.

Proposal To Eliminate Management Directive 8.13

NRR staff stated that the reason for proposing the elimination of Management Directive
8.13 was because the reactor oversight process guidance is contained in several
Inspection Manual Chapters4 and does not need to be duplicated in a management
directive. An NRR official stated that the process to update Inspection Manual Chapters
is a formal process; but, it is easier than the process for updating management
directives. As a result, NRR decided to proceed with its request to eliminate
Management Directive 8.13.

NRR staff notified ADM of its intentions and ADM instructed NRR to complete Form
521. NRR completed the form and delivered it to ADM for a preliminary review. ADM
informed NRR that OIG and OGC needed to review the management directive before
the NRR Director signed Form 521 and officially submitted it to ADM. In the meanwhile,
OIG learned about NRR’s proposal to eliminate Management Directive 8.13 and
contacted NRR to learn the specifics. During that conversation, the NRR staff person
sought to confirm that OIG needed to concur on the proposal to eliminate Management


4
 Inspection Manual Chapters are documents containing written administrative or inspection program
statements of policy.
                                                   3
                               Audit of NRC’s Controls Over the Process for Eliminating Management Directives


Directive 8.13. An OIG official explained that OIG would review but not concur5 on such
documents. The NRR staff person then called OGC to confirm whether that office
needed to concur on the Form 521. The OGC official said that OGC did not need to
concur prior to the Form 521 being sent to ADM. Based on this information, NRR
prepared the package for ADM with a cover memo stating that NRR had “coordinated”
the request with OIG and OGC. When NRR learned that OIG would be auditing the
process for eliminating management directives, NRR managers decided to place the
request to eliminate Management Directive 8.13 on hold pending OIG’s review.

NRR staff stated that the process for eliminating management directives is not well
understood, including the criteria for what requires a management directive in the first
place. Without knowing the significance of management directives, it is difficult to know
if or when a management directive can be eliminated. The Management Directives
Working Group also recognized this issue and made a recommendation that the agency
adopt and publicize threshold criteria and guidance for the creation and elimination of
management directives.

NRC’s System of Guidance Documents

NRC has various types of guidance documents for both internal and external
stakeholders. In the Code of Federal Regulations, NRC published a statement of its
organization, policies, procedures, assignments of responsibility, and delegations of
authority. NRC’s statement is that its Management Directives System and other NRC
issuances (like local directives by Regional Offices, letters and memoranda containing
directives, delegations of authority, etc.) are where NRC’s policies, requirements, and
procedures are available. This statement is an explicit example of the system of
guidance documents upon which NRC relies. And, the correlation of these different
types of guidance, in particular the importance of management directives, is not
obvious.

Agency Guidance Needs To Be Improved

NRC’s process for eliminating management directives and communicating its system of
guidance documents needs improvement because:

1.     The management directive elimination process lacks specificity.

2.     The agency does not have an official hierarchy of guidance documents.

As a result, the agency may not retain necessary controls, including authorities,
responsibilities, policies, and procedures, when a management directive is eliminated.




5
 According to the statutory language in the Inspector General Act, OIG reviews and provides comments
on existing and proposed policies and legislation, such as management directives. OIG does not concur
(which means to have or express the same opinion) on proposals to eliminate management directives, or
any agency documents.
                                                   4
                           Audit of NRC’s Controls Over the Process for Eliminating Management Directives


      Elimination Process Lacks Specificity

Although the one-paragraph guidance in Management Directive 1.1 for eliminating
management directives basically covers the process, the guidance does not clearly
provide the details for completing Form 521. For example, the form has pre-checked
boxes requiring OIG and OGC reviews. However, it is not stated or obvious at what
point in the process the reviews should take place. Furthermore, there is no instruction
on how OIG or OGC should acknowledge that their review was completed. The Form
521 does not provide a way for such acknowledgment by either office.

The guidance for eliminating management directives lacks specificity and can cause
confusion among staff and managers involved in the process. For example, efficiency
is lost as staff try to determine the appropriate steps for eliminating a management
directive.

      No Official Agency Hierarchy of Guidance

Agency authorities, responsibilities, policies, and procedures are not always obvious to
stakeholders because NRC has no official hierarchy for its system of guidance
documents. NRC employees at all levels confirmed to the Management Directives
Working Group the importance of an effective system of guidance to help them
understand and carry out their responsibilities. However, NRC has not officially
published a hierarchy of its guidance documents. For example, nowhere is it stated
whether a management directive takes precedence over an inspection manual. Other
Federal agencies, such as the Department of Energy, publish an official hierarchy of
their guidance documents.

Without an officially documented hierarchy of guidance, staff (particularly newer staff
members) may rely on the wrong guidance documents, which could adversely impact
their decisions.


RECOMMENDATIONS

The Office of the Inspector General recommends that the Executive Director for
Operations:

1.    Add specificity to the guidance in Management Directive 1.1 for eliminating
      management directives.

2.    Develop and publish an official hierarchy of NRC guidance.




                                               5
                          Audit of NRC’s Controls Over the Process for Eliminating Management Directives


AGENCY COMMENTS

At an exit conference on July 9, 2008, NRC officials agreed with the report’s
recommendations and provided editorial suggestions, which OIG incorporated as
appropriate.

Please provide information on actions taken or planned on the recommendations within
30 days of the date of this memorandum. Actions taken or planned are subject to OIG
followup, as stated in the attached instructions.


SCOPE AND METHODOLOGY

To accomplish the audit’s objective, the OIG audit team reviewed management
directives, the Management Directives Working Group’s final report, the Code of
Federal Regulations, and other associated documents. The audit team also interviewed
NRC personnel in the Office of the Executive Director for Operations, OGC, NRR, and
ADM.

OIG conducted this audit between March and May 2008 in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our finding and conclusion based
on our audit objective. The work was conducted by Sherri Miotla, Team Leader, and
Michael Cash, Senior Technical Advisor.

Attachment: As stated

cc:   Chairman Klein
      Commissioner Jaczko
      Commissioner Lyons
      Commissioner Svinicki




                                              6
                       Audit of NRC’s Controls Over the Process for Eliminating Management Directives


                                                                                      APPENDIX A
NRC Form 521, Request for Publication or Elimination of an NRC Management
Directive




                                           7
                       Audit of NRC’s Controls Over the Process for Eliminating Management Directives


                                                                                      APPENDIX B
NRC Form 522, Approval for Issuance or Elimination of an NRC Management
Directive




                                           8
               Instructions for Responding to OIG Report Recommendations

Instructions for Action Offices

Action offices should provide a written response on each recommendation within 30 days of the
date of the transmittal memorandum or letter accompanying the report. The concurrence or
clearance of appropriate offices should be shown on the response. After the initial response,
responses to subsequent OIG correspondence should be sent on a schedule agreed to with
OIG.

Please ensure the response includes:

1.     The report number and title, followed by each recommendation. List the
       recommendations by number, repeating its text verbatim.

2.     A management decision for each recommendation indicating agreement or
       disagreement with the recommended action.

       a.              For agreement, include corrective actions taken or planned, and actual or
                       target dates for completion.

       b.              For disagreement, include reasons for disagreement, and any alternative
                       proposals for corrective action.

       c.              If questioned or unsupported costs are identified, state the amount that is
                       determined to be disallowed and the plan to collect the disallowed funds.

       d.              If funds put to better use are identified, then state the amount that can be
                       put to better use (if these amounts differ from OIG’s, state the reasons).

OIG Evaluation of Responses

If OIG concurs with a response to a recommendation, it will (1) note that a management
decision has been made, (2) identify the recommendation as resolved, and (3) track the action
office’s implementation measures until final action is accomplished and the recommendation is
closed.

If OIG does not concur with the action office’s proposed corrective action, or if the action office
fails to respond to a recommendation or rejects it, OIG will identify the recommendation as
unresolved (no management decision). OIG will attempt to resolve the disagreement at the
action office level. However, if OIG determines that an impasse has been reached, it will refer
the matter for adjudication to the Chairman.

Semiannual Report to Congress

In accordance with the Inspector General Act of 1978, as amended, OIG is required to report to
Congress semiannually on April 1 and October 1 of each year, a summary of each OIG report
issued for which no management decision was made during the previous 6-month period.
Heads of agencies are required to report to Congress on significant recommendations from
previous OIG reports where final action has not been taken for more than one year from the
date of management decision, together with an explanation of delays.
